  Report No. D2007-130             September 28, 2007




Contracting Practices at Air Force Laboratory Facilities
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms

AFMC                  Air Force Materiel Command
AFRL                  Air Force Research Laboratory
COTR                  Contracting Officer Technical Representative
DARPA                 Defense Advanced Research Programs Agency
FAR                   Federal Acquisition Regulation
MOASP                 Management and Oversight of Acquisition of Services Processes
PNM                   Price Negotiation Memorandum
QASP                  Quality Assurance Surveillance Plan
                            INSPECTOR GENERAL

                           DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704




                                                                    September 28, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (ACQUISITION)

SUBJECT: Report on Contracting Practices at Air Force Laboratory Facilities
         (Report No, D-2007-130)


        Weare providing this report for review and comment. We received comments on
a draft of this report from the Assistant Secretary of the Air Force (Acquisition), The
Assistant Secretary's comments on the draft ofthis report conformed to the requirements
of DoD Directive 7650.3. We considered the Assistant Secretary's comments on the draft
ofthis report in preparing the final report,

        As a result of the Assistant Secretary's management comments, we revised and
redirected report Recommendation B, We request that the Assistant Secretary of the
Air Force (Acquisition) comment on the revised Recommendation B. by October 29,
2007,

        We request that management provide comments that conform to the requirements
of DoD Directive 7650,3, Ifpossible, please send management comments in electronic
format (Adobe Acrobat file only) to AUDACM@dodig.mil. Copies of the management
comments must contain the actual signature of the authorizing officiaL We cannot accept
the /Signed/ symbol in place ofthe actual signature. If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET),

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Benjamin A. Mehlman at (703) 604-9291 (DSN 664-9291) or Mr. Michael E.
Simpson at (703) 604-8972 (DSN 664-8972), See Appendix C for the report distribution.
The team members are listed inside the back cover.

                              By direction ofthe Deputy Inspector General for Auditing:
                                                                    ,


                            QJ~e?~~~      Richard B. Jolliffe

                                    Assistant Inspector General

                                Acquisition and Contract Management

               Department of Defense Office of Inspector General
Report No. D-2007-130                                                September 28, 2007
  (Project No. D2006-D000AB-0217.000)


          Contracting Practices at Air Force Laboratory Facilities

                                Executive Summary

Who Should Read This Report and Why? DoD procurement and contracting
personnel involved with contracting at DoD laboratory facilities should read this report.
This report discusses the need for contracting personnel to improve the award,
administration, and monitoring of contracts at Air Force laboratories.

Background. DoD laboratories are operated and managed by the Military Departments
to conduct research and development and to support acquisition. One of the main
functions performed by the DoD laboratories is science and technology research.
Science and technology research includes basic research, applied research, and advanced
technology development. Basic and applied research are broadly stated areas of
scientific study. Advanced technology development includes concept and technology
demonstrations of components and subsystems or system models. In FY 2006 the DoD
budget for science and technology programs totaled $13.3 billion.

The Air Force Research Laboratory is responsible for planning and executing the
Air Force science and technology program budget ($2.4 billion in FY 2006) including
basic research, applied research, and advanced technology development. The Air Force
Research Laboratory was formed in 1997 through the consolidation of four former
Air Force laboratories and the Air Force Office of Scientific Research. This audit
reviewed the management of research and development contracts at Air Force
laboratories. We reviewed 20 contracts valued in excess of $828 million.

Results. The Air Force Research Laboratory did not place adequate emphasis on
monitoring contracts at the research labs and did not develop a quality assurance
surveillance plan or appoint a contracting officer’s technical representative to perform
surveillance on any of the 20 research and development contracts we reviewed. While
contractors generally submitted project, technical, and fund status reports required by
contract, there was no assurance that Government personnel were delegated the authority
and responsibility to analyze and act on the contractor reports. The Air Force Research
Laboratory had a material internal control weakness regarding oversight and surveillance
of the 20 research and development contracts reviewed during this audit. As a result, the
laboratories put the Government at risk of spending more than necessary. The Air Force
should establish guidance that each Air Force Research Laboratory develop a quality
assurance surveillance plan for each contract to reduce the risk of the Government paying
more for services than the value received and to ensure surveillance responsibilities are
being carried out. In addition, the guidance should clearly define the roles and
responsibilities of contracting personnel to include appointing a trained contracting
officer’s technical representative to monitor laboratory contracts. (See finding A for the
detailed recommendations.)
The Air Force Research Laboratory had established adequate internal controls over the
research and development contract award process, including compliance with applicable
sections of the Federal Acquisition Regulation. Air Force Research Laboratory contract
file documents for 18 of 20 contracts we reviewed contained an overview of the source
selection identifying the original bidders and explaining how the winner was selected,
even though the Air Force Research Laboratory did not have a contracting policy to
require documentation of source selection reasoning. Without source selection
documentation, an audit trail of the major procuring events is unavailable, resulting in a
loss of the history of business judgments and trade-offs made by the Government. The
Air Force should revise its Instructions to require that price negotiation memorandums
explain the rationale for selecting the winning proposal and business judgments and
trade-offs made in connection with the selection in accordance with Federal Acquisition
Regulation requirements. (See finding B for the detailed recommendations).

Management Comments and Audit Response. The Assistant Secretary of the
Air Force (Acquisition) concurred with the intent of the findings and the recommendation
to issue guidance regarding Air Force Research Laboratory quality assurance surveillance
and to define the roles and responsibilities of contracting personnel. The Assistant
Secretary noted that the primary Air Force Research Laboratory quality assurance
guidance will be replaced in favor of a revised Air Force Instruction 63-101, “Acquisition
and Sustainment Lifecycle Management,” by December 2007. The Assistant Secretary
nonconcurred with a draft report recommendation made to the Commander, Air Force
Research Laboratory to revise internal laboratory guidance. As a result of the Assistant
Secretary’s comments, we revised draft report Recommendation B. in the final report and
redirected the recommendation to the Assistant Secretary. We request that the Assistant
Secretary comment on the revised recommendation by October 29, 2007. See the
Findings section for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                             ii
Table of Contents 


Executive Summary

Background 	                                                                  1


Objective 	                                                                   2


Review of Internal Controls 	                                                 2


Findings
      A. Contract Surveillance at Air Force Research Laboratory Facilities    3


      B. 	 Air Force Research Laboratories Research and Development 

            Contracts Source Selection Process                                9


Appendixes
      A. Scope and Methodology 	                                             14 

          Prior Coverage                                                     14 


      B. Contract Issues 	                                                   16 


      C. Report Distribution 	                                               18 


Management Comments

           Department of the Air Force 	                                     19 

Background 

           Department of Defense laboratories are operated and managed by the Military
           Departments to conduct research and development and support acquisition. The
           purpose of a research and development program is to advance scientific and technical
           knowledge and apply that knowledge to the extent necessary to achieve agency and
           national goals. Research and development contracts are considered performance-
           based cost reimbursement service contracts and should include a quality assurance
           surveillance plan (QASP) that describes how the contractor’s performance will be
           measured against its quality, quantity, and timeliness. DoD laboratories include the
           Army laboratories, the Navy laboratories, and the Air Force laboratories, and they
           conduct science and technology research. DoD science and technology research
           includes basic research, applied research, and advanced technology development.
           Basic research is systematic study toward greater knowledge without a specific
           application in mind. Applied research is also systematic study to understand the
           means to meet a recognized and specific need. Advanced technology development
           includes concept and technology demonstrations of components and subsystems or
           system models. The DoD science and technology program was budgeted at
           approximately $13.3 billion for FY 2006.

           This audit was initiated from findings in DoD Inspector General Report
           No. D-2007-036, “Contracting Practices at the Major Range and Test Facilities Base,”
           December 27, 2006, that contracting officials did not adequately manage 10 contracts
           at the DoD Major Range and Test Facilities Base locations. 1

           The Air Force Research Laboratory (AFRL) has overseen years of critical research
           efforts for the Air Force and DoD. Congress formalized DoD support for basic
           research by establishing the Air Force Office of Scientific Research in 1952. AFRL is
           headquartered at Wright-Patterson Air Force Base, Ohio, and includes facilities
           consolidated from four former Air Force laboratories and the Office of Scientific
           Research in 1997. AFRL is responsible for planning and executing the Air Force
           science and technology program including basic research, applied research, and
           advanced technology development. The Air Force science and technology program
           was budgeted at approximately $2.4 billion for FY 2006.
           AFRL’s mission is to discover, develop, integrate, and deliver affordable technologies
           for improved warfighting capabilities for America’s aerospace forces. AFRL
           accomplishes its mission through nine technology directorates located throughout the
           United States, and the Air Force Office of Scientific Research. We reviewed
           10 contracts managed by contract officials at Wright-Patterson Air Force Base and
           10 contracts managed by contract officials located at Kirtland Air Force Base, New
           Mexico.




1
    The 10 Major Range and Test Facilities Base contracts reviewed did not have adequate contract administration
    or surveillance, and contractors had no incentive to control costs.



                                                         1

Objective 

     Our overall audit objective was to review the management of contracts at DoD
     laboratories. This report reviewed the management of research and development
     contracts at Air Force laboratories. Specifically, the review consisted of the adequacy
     of the contract award process and oversight of contracts and contractor personnel to
     determine whether the contracts comply with applicable sections of the Federal
     Acquisition Regulation (FAR). See Appendix A for a discussion of the scope and
     methodology and for prior coverage related to the objective.


Review of Internal Controls
     We identified material internal control weaknesses for AFRL as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
     January 4, 2006. AFRL controls for contract surveillance were not adequate to ensure
     that surveillance or monitoring of contracts was maintained. AFRL policy does not
     require that contract officials develop a QASP or appoint a contracting officer
     technical representative (COTR) to conduct surveillance on any of the contracts we
     reviewed. Recommendation A., if implemented, will improve AFRL contract
     surveillance procedures with additional oversight to reduce the risk of the Government
     paying more than the value of services incurred. A copy of the report will be sent to
     the senior official responsible for the internal controls in AFRL.




                                            2

                    A. Contract Surveillance at Air Force 

                       Research Laboratory Facilities 

                    AFRL did not place adequate emphasis on monitoring contracts at the research
                    labs and did not develop QASPs for any of the 20 research and development
                    contracts we reviewed. In addition, AFRL contracting officers did not appoint
                    COTRs for any of the 20 contracts. This occurred because Air Force policy for
                    surveillance is ambiguous and is based on past AFRL practices. Although
                    contractors generally submit project, technical, and fund status reports, this is
                    not an adequate substitute for Air Force surveillance. As a result, the AFRL
                    put the Government at risk of increased research and development costs and
                    technical risk.


Government Contract Surveillance Guidance
           Quality Assurance Surveillance Requirements. FAR Subpart 4.8, “Government
           Contract Files,” provides requirements for establishing, maintaining, and disposing of
           contract files. FAR 4.803 (b), “Contract Administration Office,” states that production
           surveillance records and quality assurance records should be a part of the contract file.
           FAR Part 16, “Types of Contracts,” discusses the types of contracts that may be used
           in acquisition. FAR 16.301-3(a)(2), “Limitations,” states that cost reimbursement
           contracts may be used only when appropriate Government surveillance during
           performance will provide reasonable assurance that efficient methods and effective
           cost controls are used. FAR 46.103, “Contracting Officer Responsibilities,” states that
           contracting offices are responsible for receiving technical requirements and any
           specifications for inspection, testing, and other contract quality essential to ensure the
           integrity of the supplies or services. The activity responsible for technical
           requirements also is responsible for prescribing contract quality requirements, such as
           inspection and testing of service contracts. FAR 46.401(a), “Government Contract
           Quality Assurance,” states that a QASP should be prepared in conjunction with the
           preparation of the statement of work.

           COTR Requirement. Defense Federal Acquisition Regulation Supplement
           Section 201.6, “Contracting Authority and Responsibilities,” states that contracting
           officers may designate qualified personnel as their authorized representatives to assist
           in either technical monitoring or administration of a contract. To assist in
           administrative duties, contracting officers are authorized to designate qualified
           personnel as COTRs. 2 The designated COTRs must act as the eyes and ears for the
           contracting officer. COTRs must be properly trained, designated in writing, and
           maintain contract surveillance files. Designation letters signed by the contracting
           officer should specify the extent and limitations of the COTR authority to act on
           behalf of the contracting officer.

           The primary role of a COTR is to provide technical clarification and to monitor
           contract performance closely to ensure the Government pays only for the services and
           materials under the contract. To avoid misunderstandings, disagreements, unnecessary


2
    COTRs are also referred to as contracting officer representatives.



                                                           3

    costs, and to maintain proper control of the contract and maintain adequate file
    documentation, the Government should ensure that all COTR technical directions are
    in writing.

    AFRL Internal Contract Policy. Air Force Instruction 63-124, “Performance-Based
    Services Acquisition,” August 1, 2005, section 1.4.5, states that “performance metrics
    are to be used to track contractor progress towards meeting stated performance
    objectives. The multi-functional team in assessing contractor performance validates
    that the performance metrics align with the performance-based work statement and
    overall mission supports objectives.” The AFRL applies principles from Air Force
    Instruction 63-124 to its research and development Management and Oversight of
    Acquisition of Services Processes (MOASP) guidance.

     The National Defense Authorization Act for Fiscal Year 2002, section 2330,
    “Procurement of services; management structure,” December 2001, discusses
    contracting responsibilities of designated officials to ensure the services procured are
    in the best interest of DoD and are managed in compliance with applicable statutes,
    regulations, directives, and other requirements.


AFRL Contract Surveillance
    In the 20 contracts reviewed that were valued in excess of $828 million, AFRL used a
    generic policy for contract surveillance that was based on past AFRL practices. AFRL
    did not tailor each contract to the specific needs of each research and development
    service contract.

    AFRL Contract Surveillance Process. The Air Force Materiel Command (AFMC)
    February 11, 2004, MOASP guidance states that research and development contract
    oversight is accomplished via contractor periodic reporting requirements included in a
    Contract Data Requirements List. However, the MOASP guidance is a generic
    document and does not specify how surveillance tasks are to be completed. For
    example, the MOASP guidance does not indicate how the data in the Contract Data
    Requirements List, such as funds/man-hour reports, final reports, and status reports,
    would be assessed by the program manager or technical manager. It also doesn’t
    address surveillance that would be necessary beyond reviewing and analyzing reports
    provided by the contractor.

    The MOASP guidance states that AFRL Project Management Reviews, Technical
    Management Reviews, and Government/contractor interaction support research and
    development contract oversight. But the MOASP guidance provides no requirements
    for the performance of the management reviews. The MOASP guidance lists
    documents that could be gathered to perform a surveillance review, but makes no
    mention of the process used to validate data or support conforming or nonconforming
    observations. The MOASP guidance also does not indicate the types or frequency of
    reviews of contractor-incurred cost. Without the detail as required by a QASP
    prepared by the requiring activity, neither contracting nor oversight officials can
    determine whether contract monitoring efforts are sufficient.

    Air Force officials noted that other AFRL internal guidance required a laboratory
    management review process to rapidly identify potential problems and assure that
    appropriate management level have accurate, timely, and pertinent information.


                                            4

     Air Force officials also stated that the other AFRL guidance requires semi-annual
     baseline reviews on all research and development contracts covering program status
     over manning, cost, schedule, technical performance and deliverables, funding, and
     contracting. Air Force officials stated that the laboratory management reviews and
     baseline reviews are used in lieu of a QASP process.

     The AFRL MOASP guidance does not instruct contracting officials to prepare a QASP
     as required by FAR 46.401(a). We concluded that the MOASP guidance was
     inadequate to perform AFRL surveillance efforts. An adequate surveillance plan
     provides the foundation for a comprehensive and systematic monitoring of contractor
     performance and a standard against which actual surveillance efforts can be measured.
     The lack of a surveillance plan subjects the Government to greater risk that the
     contractor may not be performing all contractual requirements in accordance with the
     contract terms.

     AFRL COTRs. While AFRL contracting officials verbally assigned technical
     representatives to monitor and provide oversight of cost-type research and
     development contracts, there was no letter of designation of the COTR appointment as
     required by Defense Federal Acquisition Regulation Supplement Section 201.6 in the
     contract files. Contracting officials at AFRL appointed a multifunctional team to
     manage and provide oversight for each contract. However, the duties and
     responsibilities of the multifunctional team were not clearly stated. AFRL did not
     appoint COTRs because it was not addressed by the AFRL MOASP guidance.

     AFRL Surveillance Plans. AFRL officials did not develop a QASP for research and
     development contracts and do not require a surveillance plan to be a part of the
     contracting file. AFRL contracting officials stated that the MOASP guidance
     substituted for the QASP and assured adequate contractor reporting, oversight, and
     monitoring of progress and performance. AFRL contracting officials stated that the
     QASP would duplicate reporting and oversight requirements already included by
     contract or inherent in AFRL operations.

     We do not believe that the MOASP guidance meets monitoring of contractor
     performance as required by FAR 16.301-3(a) (2) and FAR 46.401(a). AFRL should
     prepare QASPs in conjunction with the statement of work and indicate which work
     requires surveillance and which type of surveillance will be performed.


AFRL Oversight of Acquisition of Services Policy
     AFRL Policy. The National Defense Authorization Act for Fiscal Year 2002
     (Section 801 of Public Law 107-107) directs each Military Service to establish a
     designated official and management structure for services contracts, and required DoD
     to establish sound management and oversight processes for service contracts. On
     June 3, 2003, the Assistant Secretary of the Air Force (Acquisition) issued a
     memorandum to AFMC to implement the Section 801 requirement for services
     acquisitions at each Air Force major command through a formalized service contract
     management and oversight process. On March 8, 2004, the Air Force Materiel
     Command Commander issued a memorandum to the Air Force Materiel Center
     Commanders noting that the MOASP guidance would be effective as policy for
     Section 801 implementation for research and development service contracts. On
     May 13, 2004, the Air Force Program Executive Officer for Combat and Mission


                                           5

    Support issued a memorandum that gave AFRL Center Commanders authority to act
    as the designated official for management and oversight of all services acquisitions
    within the AFRL. The memorandum also stated AFRL would work with AFMC to
    amend the MOASP guidance to include AFRL specific procedures.

    On July 19, 2004, the AFRL Commander issued a memorandum to all AFRL activities
    stating that AFRL, AFMC, and Air Force Program Executive Officer Combat and
    Mission Support had jointly determined that Air Force research and development
    contracting fell under the purview of the Section 801 definition of services.
    Section 801 requires that acquisitions of services within DoD are based on clear,
    performance-based requirements and that required outcomes are identified and
    measurable, and that acquisitions are properly planned and administered to achieve the
    intended results. The AFRL memorandum also stated that the MOASP guidance was
    the AFRL policy for Section 801 pre- and post-award management and oversight of
    research and development contracts. We believe that the Air Force use of the MOASP
    guidance to implement Section 801 for Air Force research and development
    contracting effectively side-stepped the intent of Section 801 by grandfathering
    existing AFRL oversight practices that are not based on performance-based
    requirements and outcomes.


Conclusion

    AFRL contracting officials did not prepare a QASP on any of the 20 contracts
    reviewed. To provide reasonable assurance of quality performance on service
    contracts AFRL should create a QASP while developing the statement of work. To
    ensure the Government receives good value, specific attention is required on cost
    reimbursement contracts. In addition, contracting officials did not appoint a COTR.
    Failure to appoint a COTR on research and development service contracts subjects the
    Government to greater risk of unnecessary costs and inadequate technical
    administration on contract performance. Also, because of the technical complexity
    specifically on research and development service contracts, contracting officials
    should prepare a designation letter tailored to the needs of each specific contract
    addressing the responsibilities of the requirement. Oversight and monitoring of
    contractor performance is vital in protecting the interest of the Government.
    The FAR authorizes the use of cost reimbursement contracts only when appropriate
    Government surveillance during performance will provide reasonable assurance that
    efficient methods and effective cost controls are used. AFRL contracting officials
    should update the MOASP guidance to require each AFRL directorate to develop a
    QASP for each contract and appoint in writing trained contracting officials to ensure
    surveillance duties and responsibilities are clearly defined on service contracts.


Management Comments on the Finding and Audit Response
    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred with the finding, noting that the Air Force has increased emphasis on
    defining requirements to ensure surveillance duties are adequately performed. The
    Assistant Secretary noted that AFRL used the MOASP to ensure adequate surveillance
    performance. The Assistant Secretary agreed that Air Force Instruction 63-124 directs


                                          6

    performance-based procedures for developing requirements, but also allows
    acquisition strategies (such as the MOASP) to deviate from use of a Performance Plan
    or QASP as long as the deviations are documented in the contract file. Such MOASP
    deviation documentation applied to all AFRL research and development contracts and
    task orders. The Assistant Secretary of the Air Force (Acquisition) concurred with the
    finding, noting that the Air Force has increased emphasis on defining requirements to
    ensure surveillance duties are adequately performed.

    The Assistant Secretary noted that AFRL manages contracted and in-house scientific
    research and development in accordance with Air Force Policy Directive 61-1,
    “Management of Science and Technology” and AFRL Instruction 61-202, “AFRL
    Laboratory Management Review (LMR) Process,” and other AFRL guidance to assure
    management has appropriate, timely, and pertinent information through baseline
    reviews and reports on contractor cost, schedule, and technical milestones. Program
    managers or project engineers review the baseline reviews with contractors. The
    Assistant Secretary noted that such reviews are used by AFRL in lieu of a QASP or a
    performance plan. The Assistant Secretary also noted that AFRL program managers
    and project engineers are the “ad hoc appointed COTRs” on AFRL research and
    development contracts.

    Audit Response. Based on the Air Force comments, we expanded discussion in the
    final report regarding AFRL internal guidance and the AFRL contract surveillance
    process. However, we continue to conclude that the AFRL surveillance process falls
    short of the detail as required by a QASP process and that AFRL guidance does not
    meet the standard to monitor contractor performance as required by
    FAR 16.301 3(a) (2) and FAR 46.401(a). The lack of a surveillance plan subjects the
    Government to greater risk that the contractor may not be performing all contractual
    requirements in accordance with the contract terms. AFRL should prepare QASPs in
    conjunction with the statement of work and indicate which work requires surveillance
    and which type of surveillance will be performed. Use of the program managers and
    project engineers as ad hoc COTRs falls short of DoD requirements for contracting
    officers to appoint COTRs to conduct contract surveillance.


Recommendation and Management Comments
           A. We recommend that the Assistant Secretary of the Air Force
    (Acquisition) require the Air Force Research Laboratory to revise the
    Management and Oversight of Acquisition Services Processes to include guidance
    that each Air Force Research Laboratory develop a quality assurance
    surveillance plan for each contract to reduce the risk of the Government paying
    more for services than the value received and to ensure that surveillance
    responsibilities are being carrying out. In addition, the guidance should clearly
    define the roles and responsibilities of contracting personnel to include
    appointing a trained contracting officer’s technical representative to monitor
    technical service performance contracts.

            Air Force Comments on the Recommendation. The Assistant Secretary of
    the Air Force (Acquisition) concurred with the recommendation. The Assistant
    Secretary noted that the AFRL MOASP will be removed in favor of a revised
    Air Force Instruction 63-101, “Acquisition and Sustainment Lifecycle Management,”
    by December 2007. The Assistant Secretary restated that AFRL utilizes unique


                                          7

oversight procedures such as program management reviews, contract data
requirements, and technical management reviews to ensure quality. The Assistant
Secretary also noted that the uncertain nature of research and development precludes
the development and application of objective criteria for performance assessment.




                                      8

            B. 	Air Force Research Laboratories
                Research and Development Contracts
                Source Selection Process
            AFRL established adequate internal controls over the research and
            development contract award process and compliance with applicable sections
            of the FAR. AFRL contract file documents for 18 of 20 contracts we reviewed
            contained an overview of the source selection identifying the original bidders
            and explaining how the winner was selected, even though AFRL did not have a
            contracting policy to require documentation of source selection reasoning.
            Without source selection documentation, an audit trail of the major procuring
            events is unavailable, resulting in a loss of the history of business judgments
            and trade-offs made by the Government, including benefits associated with
            additional costs to the acquisition.


AFRL Contract Award Procedures
     AFRL Proposal Evaluation Process. The AFRL “Broad Agency Announcement
     Industry Guide,” May 2006, directs that research and development proposals be
     evaluated based on the criteria published in the announcement by a Government
     technical evaluation team or, when the necessary expertise cannot be found, outside
     consultants may be included in the technical evaluation team. AFRL technical
     evaluations classify bidder proposals into three categories. Proposals rated Category I
     are recommended for acceptance and normally will be displaced only by other
     Category I proposals. Category II proposals are rated at a lower priority than
     Category I but can be recommended for acceptance, subject to available funds.
     Category III proposals are determined by AFRL to not be technically sound or judged
     not to meet agency needs.

     AFRL Award Process. Once AFRL completes the technical evaluation, it negotiates
     the most appropriate cost and technical arrangement with the offerors selected for
     award. The types of awards include contracts, grants, or cooperative agreements.
     AFRL awards are usually made to Category I proposals prior to awards made to any
     Category II proposals. Occasionally, the Air Force may buy only a certain portion of a
     proposal depending on available funding from AFRL divisions.


Criteria
     FAR criteria addresses source selection decisions in several different sections.
     FAR 4.8, “Government Contract Files,” prescribes the requirements for establishing
     and maintaining the contract files. The guidance directs that the documentation should
     constitute a complete history of the transaction and a complete background as a basis
     for supporting informed decisions at each step of the acquisition process. FAR 4.803,
     “Contents of Contract Files,” lists examples of records in the contracting office files
     and includes source selection documentation as one of the items. FAR 15.308,
     “Source Selection Decision,” states that the source selection decision shall be



                                            9

           documented and the documentation shall include the rationale for any business
           judgments and trade-offs made regarding contract cost, economy, and efficiency.

           FAR Part 35, “Research and Development Contracting,” describes policies and
           procedures specific to research and development contracting. Specifically,
           FAR 35.016, “Broad Agency Announcement,” describes procedures for the
           acquisition of basic and applied research not related to the development of a specific
           system, and where the agency anticipates proposals with varying technical or scientific
           approaches. Air Force Materiel Command FAR Supplement Part 5335, “Research and
           Development Contracting,” describes the receipt and evaluation of proposals into
           Category I, II, or III. The National Defense Authorization Act for Fiscal Year 2002
           (Public Law 107-107) requires the Secretary of Defense to establish a management
           structure for the procurement of services for DoD. It was determined within the
           Air Force that research and development falls under the category of services. In May
           2004, the AFRL MOASP guidance established policy for management and oversight
           of research and development services contracts.


AFRL Source Selection Decisions
           Results of Source Selection Information Analysis. While AFRL established and
           maintained the research and development contract award files that were generally
           well-organized and complete, the AFRL contract files and negotiation memorandums
           did not always contain an overview of the source selection process identifying the
           original bidders and explaining how the winner was selected. The AFRL source
           selection process was documented in two ways, via the technical evaluation and also
           in the price negotiation memorandum (PNM). 3 AFRL technical evaluations generally
           contained detailed analyses of required elements of each bidder proposal. However,
           AFRL PNMs only briefly summarize the source selection decisions resulting from the
           technical evaluations in a sentence or two. In two instances, the number and identity
           of proposals and resulting source selection decisions were not disclosed in the PNM.

               •	 For contract FA9453-05-C-0220, valued at $13.4 million, the PNM did not
                  disclose the competing proposals and the basis for selecting the winning
                  proposal over the other bidders. However, the technical evaluation included a
                  detailed narrative that summarized the scientific/technical strengths and
                  weaknesses of each of four proposals including the recommended winner. The
                  technical evaluation noted that proposed costs for all bidders were reasonable
                  but provided no elaboration.

               •	 For contract modification F29601-03-C-0061 P00014, valued at $6 million, the
                  PNM for the basic contract did not identify the other three proposals nor
                  explain why the winning proposal was selected. The technical evaluation
                  explained that the proposed technical approach for the winner was relatively
                  sound and that the proposal provided adequate cost information. But the
                  technical evaluation did not identify or address any other proposal. This
                  contract was completed in June 2006 and closed out in August 2006.



3
    AFRL also referred to the “price negotiation memorandum” as the “price competition memorandum.”



                                                      10

    For the two contracts, AFRL PNMs did not provide the source selection information
    with respect to other bidder proposals nor discuss the basis on which the winning
    proposal was selected.

    AFRL as Agent for Defense Advanced Research Projects Agency Procurements.
    AFRL acted as the procurement agent for the Defense Advanced Research Projects
    Agency (DARPA) for 3 of the 20 AFRL contracts reviewed. DARPA solicited,
    funded, and performed all acquisition planning and source selection activities related
    to the three contracts. For contracts FA8650-04-C-7146 and FA8650-04-C-7108,
    DARPA furnished a memorandum to the AFRL contracting officer describing the
    basis used to select the winning proposal, including overall scientific and technical
    merit, relevance to the DARPA mission, and adequate cost documentation. Contract
    FA8650-05-C-7214 included an AFRL technical evaluation and PNM summarizing
    DARPA source selection determinations and AFRL evaluated technical and cost
    aspects. AFRL contract officers coordinated with DARPA in the contract award
    process and adequately documented the contract files to support the contract award.


AFRL Contract Award Policy
    AFRL did not establish or maintain contracting policy to require source selection in
    the PNM or contract file addressing unsuccessful proposals or the rationale for the
    selection decisions. AFRL relies heavily on the MOASP guidance and the Broad
    Agency Announcement Industry Guide for its contract management policy. The
    MOASP guidance is written at a very general level and does not address such specifics
    as evaluation for award.

    AFRL contracting officials stated their acquisitions are not formal source selections
    and therefore are not subject to the specific process and documentation requirements
    in FAR Part 15. We disagree in that FAR 15.308 states that the source selection
    decision shall be documented and the documentation shall include the rationale for any
    business judgments and trade-offs made. While FAR Part 35 discusses a revised
    negotiation process for research and development contracts, it also references FAR
    Part 15 for negotiated research and development contract actions. AFRL contracting
    officials stated that the existing AFRL Broad Agency Announcement Industry Guide
    and MOASP technical evaluation process substitutes for a formal source selection
    decision document. We believe that AFRL should continue to use the Broad Agency
    Announcement Industry Guide and MOASP guidance but revise them to require
    documentation of source selection decisions in accordance with FAR 15.308 and
    FAR 4.803.


Conclusion
    AFRL established and maintained research and development contract award files that
    were generally well-organized and complete. However, AFRL contract files and
    PNMs did not always contain an overview of the source selection process identifying
    the original bidders and explaining how the winner was selected. AFRL research and
    development acquisitions are subject to FAR Part 15 regarding disclosure of source
    selection requirements and AFRL guidance should direct that PNMs contain more
    complete disclosure of the competing proposals and the basis for selecting the winning


                                          11

    proposal over the others. Without source selection documentation, an audit trail of the
    major procurement events is unavailable resulting in a loss of the history of business
    judgments and trade-offs made, including the rationale when higher-priced proposals
    were selected.


Management Comments on the Finding and Audit Response
    Air Force Comments. The Assistant Secretary of the Air Force (Acquisition)
    concurred with the finding, agreeing that documentation of the source selection
    process in accordance with FAR Part 15, or documentation of the peer or scientific
    reviews in accordance with FAR 35.016, is required in the contract file. The Assistant
    Secretary noted that AFRL did not provide additional policy on selection
    documentation and price reasonableness due to existing Air Force and AFMC
    guidance. The Assistant Secretary noted that evaluation of proposals received under
    broad agency announcements are not necessarily evaluated against each other since
    they are not submitted in accordance with a common work statement. The Assistant
    Secretary agreed that contract F29601-03-C-0061 did not contain adequate
    documentation but noted that there was no systemic problem across AFRL. The
    Assistant Secretary noted that the need for inclusion of documentation would be
    included in training for all contracting officers and negotiators.

    Audit Response. Based on our review of the 20 research and development contracts,
    we found no evidence of a systemic contract documentation problem at AFRL.
    Proposals evaluated under broad agency announcements may or may not be based on a
    common work statement. To the extent they are not based on a common work
    statement, the proposals must be evaluated based on varying technical or scientific
    approaches.


Recommendation, Management Comments, and Audit Response
    Revised and Redirected Recommendation. As a result of Assistant Secretary of the
    Air Force (Acquisition) comments, we revised draft report Recommendation B. in the
    final report and redirected the recommendation to the Assistant Secretary.

    B. We recommend that the Assistant Secretary of the Air Force (Acquisition)
    revise Air Force Instruction 63-101, “Acquisition and Sustainment Lifecycle
    Management,” to require that price negotiation memorandums explain the
    rationale for selecting the winning proposal and business judgments and trade-
    offs made in connection with the selection in accordance with Federal Acquisition
    Regulation 15.308 and 4.803 requirements.

    Air Force Comments on the Recommendation. The Assistant Secretary non-
    concurred with a draft report recommendation that the Commander, AFRL revise the
    MOASP guidance and Broad Agency Announcement Industry Guide to require that
    PNMs should explain the rationale for selecting the winning proposal and business
    judgments and trade-offs made in connection with the selection in accordance with
    FAR 15.308 and 4.803 requirements. The Assistant Secretary stated that the MOASP
    will be incorporated into a revised version of Air Force Instruction 63-101,
    “Acquisition and Sustainment Lifecycle Management,” by December 2007. The


                                          12

Assistant Secretary also noted that the AFRL Broad Agency Announcement Industry
Guide does not direct or place contracting requirements on Government personnel. In
addition, the Assistant Secretary stated that Air Force major commands are
discouraged from further supplementing DoD and Air Force FAR Supplements as
those documents adequately cover the source selection process to include
documentation.

Audit Response. We request further comments from the Assistant Secretary of the
Air Force (Acquisition) on the revised Recommendation B. by October 29, 2007.




                                     13

Appendix A. Scope and Methodology 

    We performed this audit from June 2006 to July 2007 in accordance with generally
    accepted government auditing standards. Those standards require that we plan and
    perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
    basis for our findings and conclusions based on our audit objectives. We believe that
    the evidence obtained provides a reasonable basis for our findings and conclusions
    based on the audit objectives.

    We reviewed 20 AFRL cost-type research and development contracts (see Appendix B
    for a listing of the 20 contracts). The 20 contracts, valued in excess of $828 million,
    were judgmentally selected from 120 FY 2005 contracts, each exceeding $5 million,
    awarded by AFRL technology directorates using broad agency announcement
    solicitation methods.

    We visited the two AFRL sites (Wright-Patterson Air Force Base, Ohio; and Kirtland
    Air Force Base, New Mexico) that included 72 percent (86 of the 120) of the FY 2005
    AFRL contract actions exceeding more than $5 million each. We interviewed contract
    officials at Wright-Patterson and Kirtland to gain a better understanding of the major
    events related to the contract award and contract management activities. We
    interviewed selected contractor and AFRL research and development program
    officials and visited selected AFRL laboratory facilities where research and
    development work is conducted. We examined the contracting procedures AFRL
    officials used in awarding and monitoring research and development contracts for
    compliance with applicable sections of statute, the FAR, and the Defense Federal
    Acquisition Regulation Supplement. We reviewed Government contract file and
    program office documentation including (but not limited to) basic contracts, broad
    agency announcements, statements of work, PNMs, technical evaluations, legal
    reviews, award fee plans, contract award announcements, and contract modifications.
    We visited and interviewed management at AFRL Headquarters activities that oversee
    AFRL operations. We also reviewed AFRL internal control programs as they related
    to management of AFRL research and development contracts.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the “DoD Contract Management” high-risk area.


Prior Coverage
    During the last 5 years, the Government Accountability Office and the DoD Inspector
    General have issued two reports discussing research and development contracting and
    surveillance issues. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD Inspector General reports can be accessed at
    http://www.dodig.mil/audit/reports.




                                          14

General Accountability Office
     General Accountability Office Report No. GAO-05-274, “Opportunities to Improve
     Surveillance on DoD Service Contracts,” March 17, 2005

DoD Inspector General
     DoD Inspector General Report No. D-2007-036, “Contracting Practices at the Major
     Range and Test Facilities Base,” December 27, 2006




                                         15

        Appendix B. Contract Issues 

Contract Number             Contract       Name of                   Dollar Value        Source        COTR        Surveillance
                            Type *         Contractor                                    Selection     Appointed   Plan
                                                                                         Negotiation
                                                                                         Memo

1) FA9451-05-C-0257            CPAF        Boeing LTS, Inc.             $223,768,539        YES           NO           NO


2) FA9453-05-C-0241            CPFF        Honeywell International          26,395,461      YES           NO           NO
                                           Inc.


3) FA9451-06-D-0118             CPFF       Boeing-SVS, Inc.                 26,381,443      YES           NO           NO
Task Order 0001


4) FA9453-05-C-0177            CPAF        Scientific Research              22,421,975      YES           NO           NO
                                           Corporation


5) FA9453-05-D-0251          CPAF/FFP      Millennium Space                 20,300,000      YES           NO           NO
                                           Systems, Inc.


6) FA9453-05-C-0165             CPFF       Boeing Satellite                 19,529,072      YES           NO           NO
                                           Systems, Inc.


7) FA9451-04-D-0399             CPFF       Schafer Corporation              17,855,489      YES           NO           NO
Task Order 0002


8) FA9453-05-C-0220            CPAF        Raytheon Company                 13,359,364       NO           NO           NO


9) FA9451-05-D-0004             CPFF       Science Applications              8,732,328      YES           NO           NO
Task Order 0001                            International



10) F29601-03-C-0061            CPFF       Northrop Grumman                  6,025,379       NO           NO           NO
Modification P0014                         Space & Mission


11) FA8650-05-D-6502            CPFF       L-3 Communications              240,900,000      YES           NO           NO
                                           Corporation


12) F33615-03-D-2354            CPFF       Pratt & Whitney                  38,556,484      YES           NO           NO
Task Order 0009


13) FA8650-04-C-7146            CPFF       Raytheon Company                 26,863,120      YES           NO           NO




        *
            See acronym list at the end of this Appendix.



                                                                     16

Contract Number             Contract          Name of             Dollar Value      Source        COTR        Surveillance
                            Type              Contractor                            Selection     Appointed   Plan
                                                                                    Negotiation
                                                                                    Memo

14) FA8650-05-D-6633            CPFF          Northrop                 24,900,000      YES           NO           NO
                                              Grumman
                                              Information
                                              Technology, Inc.


15) F33615-03-D-2352 Task       CPFF          General Electric         23,683,600      YES           NO           NO
Order 0007                                    Company


16) FA8650-04-C-7108            CPFF          Lockheed Martin          21,981,777      YES           NO           NO
Modification P00013                           Corporation


17) F33615-03-C-5508         Cost Sharing     Superpower, Inc.         10,697,440      YES           NO           NO
Modification P00008


18) FA8650-05-D-5052         Cost Sharing     University of            20,000,000      YES           NO           NO
                                              Dayton


19) FA8650-05-C-7214            CPFF          Rockwell Collins,        19,000,000      YES           NO           NO
Modification P00011                           Inc.


20) FA8650-04-D-5233            CPFF          UES, Inc.                17,186,000      YES           NO           NO



Total                                                                $828,537,471



              Acronyms

              CPAF                          Cost-Plus-Award-Fee
              CPFF                          Cost-Plus-Fixed-Fee
              FFP                           Firm-Fixed-Price




                                                                        17

Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Commander, Air Force Materiel Command
Commander, Air Force Research Laboratory
Air Force Program Executive Officer, Combat and Mission Support
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                            18

Department of the Air Force Comments 





   OFFICE OFTHEASSISTANT SECRETARY



          MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDITING 

                         OFFICE OF THE INSPECTOR GENERAL 

                         DEPARTMENT OF DEFENSE 

                                                                                        i
          FROM: SAF/AQ
          SUBJECT: DoD Draft Audit Report Contracting Practices at Air Force Laboratory Facilities
                   (9 Jul 07), Project No. D2006-D000AB-0217,000
                  I appreciate the opportunity to review and comment on your draft report of audit
          concerning Contracting Practices at Air Force Research Laboratory (AFRL) facilities. I concur
          with intent on the findings and recommendations of the subject draft report),
                Adequate emphasis needs to be placed on service contracts to protect the interests of the
         Government. The Air Force has increased the emphasis on defining the surveillance
         requirements, in the form of Air Force Instructions (AFI) and Management and Oversight of
         Acquisition Services Programs (MOASP) policy, to ensure appropriate surveillance of all
         contracts, including research and development contracts.
                  The AF Program Executive Officer for Combat and Mission Support (AFPEO/CM) is
          working with my acquisition policy divisionincorporatingthe Acquisition Services Chapter
          within the 63-series instructions. It is my intention to replace the USAF MOASP policy with
          this new policy guidance. I expect the revised AFI 63-101 to be published in December 2007.
                  The SAF/AQ point of contact for this audit is Maj Montler, AFPEO/CM, at (703) 588¬
          7192,




                                                         SU
                                                         SUE
                                                           E C.  PAYTON
                                                              C. PAYTO    N
                                                         Assistantt Secretar
                                                         Assistan   Secretaryy ooff th
                                                                                    thee Ai
                                                                                         Airr Forc
                                                                                              Forcee
                                                         —(Acquisition}- ­
                                                         —(Acquisition)-                            ­

          Attachments:: 

          Attachments
          Managemen
          Managementt Comments
                        Comments 





                                                         19 

                                     Management Comments. Project No. D2006-D000AB-0217.000

                           1. DoD Audit Finding A, Contract Surveillance at Air Force Research Laboratory
                           Facilities: AFRL did not place adequate emphasis on monitoring contracts at the research labs
                           and did not develop QASPs for any of the 20 research and development contracts reviewed. In
                           addition, AFRL contracting officers did not appoint COTRsfor any of the 20 contracts. This
                           occurred because Air Force policy for surveillance is ambiguous and is based on past AFRL
                           practices. Although contractors generally submit project, technical, and fund status reports, this
                           is not adequate substitute for Air Force surveillance. As a result, the AFRL put the government
                           at risk for increased research and development costs and technical risk

                           Management Comments.

                           Concur with Comment

                           a. The Air Force has increased the emphasis on defining the requirements to ensure surveillance
                           duties and responsibilities are adequately performed and documented. Air Force Instruction
                           (AFI) 63-124, directs performance-based procedures for developing requirements, acquiring
                           services, and managing service acquisitions within the Air Force, AFI 63-124, Paragraph 1.8
                           allows the multifunctional team to develop an acquisition strategy that deviates from the
                           instruction as long as it meets the spirit and intent of the requirements of the AFI. However, the
                           requirement to document their decision to deviate from the requirements in the Performance Plan
                           or Quality Assurance Surveillance Plan must be documented in the contract file, As such, AFRL
                           used the AFRL MOASP to ensure surveillance duties and responsibilities were adequately
                           performed and documented.

                           b. The purpose of the AFRL MOASP is to implement USAF and AFMC MOASPs for review
                           and approval of all R&D service acquisitions within AFRL, apply AFI 63-124 principles to the
                           unique R&D services environment, and establish AFRL R&D services management and
                           oversight processes. This document applies to all AFRL contract or task orders for R&D and
                           therefore serves as documentation of AFRL compliance with AFI 63-124 and Management and
                           Oversight of Acquisitions of Services Processes (MOASP) applicable until NDAA 2006 change.

                           c. AFRL manages their contracted and in-house scientific research and development in
                           accordance with AFPD 61-1, Management of Science and Technology, and AFRLI 61-202,
                           AFRL Laboratory Management Review (LMR) Process. The LMR process ensures the
                           appropriate management levels have accurate, timely, and pertinent information upon which to
                           make sound and timely decisions. The LMR is designed to rapidly surface potential problems
                           with the goal of maximizing the return on invested resources. The LMR establishes and reports
on   cost   schedule,   and	        technical        milestones        forR&Defforts to includeana s s e s s m e n t of funding
                           levels, funds status, and cost performance to determine if the objectives of the contract are being
                          met. In addition, AFRL Guidance Memorandum (GM 61-02-2006) Program Baseline
                          Development (PBD) requires semi-annual baseline reviews on all R&D contracts. The Program
                           Baseline Reviews (PBR) cover the program health and status regarding cost, schedule, technical
                           performance, systems engineering, program risk, funding, facilities, manning, contracting,
                           deliverables, and technology transition plans. The program managers or project engineers
                          review these PBRs with the contractors and this includes the delivery of reports using Contract
                          Data Requirement Lists (CDRLs), The LMR and PBR assessments are used in lieu of a




                                                                              20 

standardized quality assurance surveillance plan (QASP) or performance plan. Also, the
program managers/project engineers are the ad hoc appointed COTRs on AFRL R&D contracts.
Individuals will be appointed in writing and the documentation will be placed in the contract file.

2. Dot) Audit Finding A Recommendation: We recommend that the Assistant Secretary of the
Air Force (Acquisition) require the Air Farce Research Laboratory to revise the Management
and Oversightof Acquisition Services Processes to include guidance that each Air Force
Research Laboratory develop a quality assurance surveillance plan for each contract to reduce
the risk of the government paying morefor services than the value received and to ensure
surveillance responsibilities are being carried out. In addition, the guidance should clearly
define the roles and responsibilities of contacting personnel to include appointing a trained
Contacting Officer's Technical Representative to monitortechnicalservice performance
contracts.

Management Comments.

Concur with Comment

a, A draft AFI 63-101, Acquisition and Sustainment Lifecyele Management, is being coordinated
within the Air Staff. Chapter 3, Acquisition of Services, will replace the USAF MOASP policy,
The estimated date for the approval of the revised API 63-101 is December 2007.

b. AFRL utilizes unique oversight procedures such as Program Management Reviews (PMRs),
LMRs, Technical Management Reviews (TMRs) and review of contractor generated data such as
reports required by the CDRLs and other deliverable reports to ensure quality. Progress toward
objectives is measured through periodic review of contractor cast, schedule and technical
performance. The uncertain nature of R&D precludes development and application of objective
criteria for performance assessment used with traditional service contracts.

3. DoD Audit Finding B, Air Force Research Laboratories Research and Development
Contracts Source Selection Process: AFRL established adequate internal controls over the
research and development contract award process and compliance with applicable sections of
the FAR. AFRL contract file documents for I8 of 20 contracts we reviewed contained an
overview of the source selection identifying the original bidders and explaining how the winner
was selected, even though AFRL did not have a contracting policy to require documentation of
source selection reasoning. Without source selection documentation, an audit trail of the major
procuring events is unavailable resulting in loss of the history of business judgments and trade­
offs made by the government, including benefits associated with additional cost to the
acquisition.

Management Comments;

Concur

a, I agree that documentation of the source selection process for Request for Proposal (RFP) in
accordance with FAR Part 15 or documentation of the peer or scientific review in the case of a
Broad Agency Announcement (BAA) in accordance with FAR 35.016, is required and must be
included in the contract file. Proposals received as a result of the BAA are evaluated in
accordance with evaluation criteria specified in the announcement through a peer or scientific




                                                21 

Final Report
 Reference




               review process. Written evaluation reports on individual proposals are accomplished, but
               proposals are not necessarily evaluated against each other since they are not submitted in
               accordance with a common work statement.

               b. Due to existing AFFARS and AFMC guidance, AFRL does not require additional policy
               instructions for selection documentation and price reasonableness determinations.

               c. I concur that contract F29601-03-C-0061 did not contain adequate documentation of the
               selection decision in either the technical evaluation or negotiation memorandum; however, this is
               an isolated incident, and there is no systemic problem across AFRL. This contract is completed;
               however, the need for inclusion of documentation on the acquisition process will be included in
               training for all contracting officers/contract negotiators.
Revised and    4. DoD. Audit Finding B Recommendation: We recommend that the Commander, Air Force
Redirected     Research Laboratory revise the Management and Oversight ofAcquisition of Services Processes
               guidance and Broad Agency Announcement Industry Guide to require that negotiation
               memorandums should explain the rationale for selecting the winning proposal and business
               judgments and trade-offs made in connection with the selection in accordance with Federal
               Acquisition Regulation 15.308 and 4.803 requirements.

               Management Comments.

               Non-concur

               a. The Management and Oversight of Acquisition Services Process (MOASP) will be
               incorporated in the next version of AFI 63-101 which is currently in coordination. Once the AH
               is published, the USAF MOASP will no longer exist.

               b. In addition, the "Broad Agency Announcement Industry Guide" is a guide and is offered for
               information to contractors and, as a guide, does not direct or place requirements on government
               contracting personnel. There are no requirements to provide additional guidance at the AFRL
               level. The MAJCOMs are discouraged from supplementing AFFARS since the FAR, DFARS,
               AFFARS, and AFMCFARS adequately cover the source selection process, to include
               documentation.




                                                              22 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Benjamin A. Mehlman
Michael E. Simpson
George A. Leighton
Gloria J. Parker
Jessica I. Vandemark
Carrie J. Gravely
Bernard M. Vennemann
Meredith H. Johnson




                                   23 

